        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's
Weatherization Assistance Program
Funded under the American
Recovery and Reinvestment Act for
the Commonwealth of Virginia




OAS-RA-11-14                        August 2011
                                   Department of Energy
                                     Washington, DC 20585
                                          August 25, 2011


MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman
                          Inspector General
SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         Weatherization Assistance Program Funded under the American
                         Recovery and Reinvestment Act for the Commonwealth of Virginia"

BACKGROUND

In 2009, the Commonwealth of Virginia's (Virginia) Department of Housing and Community
Development's (DHCD) Weatherization Assistance Program (Weatherization Program) was
awarded a 3-year grant of approximately $94 million from the American Recovery and
Reinvestment Act (Recovery Act) of 2009 to weatherize 9,193 homes. Virginia's DHCD
administers its Weatherization Program through 22 local community action agencies (local
agencies); organizations which are responsible for determining applicant and housing unit
eligibility, weatherizing homes and conducting home assessments and inspections.

In May 2010, the Office of Inspector General (OIG) issued a Preliminary Audit Report on the
effectiveness of Virginia's implementation of the Recovery Act funded Weatherization Program.
The report, "Management Controls Over the Commonwealth of Virginia's Efforts to Implement the American
Recovery and Reinvestment Act Weatherization Assistance Program," (OAS-RA-10-11), identified
several issues that contributed to a less than effective implementation of Virginia's
Weatherization Program. Subsequent to issuing the interim report, we completed work at three
of Virginia's local agencies to evaluate their success in carrying out the Recovery Act funded
Weatherization Program. Specifically, we performed reviews at Crater District Area Agency on
Aging (Crater), Community Housing Partners Corporation (CHPC), and Rappahannock Area
Agency on Aging (Rappahannock).

RESULTS OF AUDIT

Our May 2010 audit report identified a number of weaknesses in the Commonwealth of
Virginia's Weatherization Program. In particular, our testing of local agencies' weatherization
activities performed during the period from February 2009 to March 2010 revealed that:

       CHPC and Crater had not always developed and/or maintained support for costs billed to
       and reimbursed by the Virginia Weatherization Program. As such, we questioned about
       $1.2 million in costs incurred by these agencies;

       Crater provided weatherization services to a number of ineligible applicants and/or
       dwellings;
                                                  2


       Neither CHPC nor Crater always performed required inspections of completed units; and,

       Crater had not always ensured workers were paid Recovery Act mandated Davis-Bacon
       Act wage rates.

These weaknesses were not initially detected or corrected because, as discussed in our
Preliminary Report, the Commonwealth of Virginia's DHCD had not implemented the financial
and reporting controls needed to ensure Weatherization Program funds were spent effectively
and efficiently. In particular, we noted in our May 2010 Preliminary Report that DHCD had not
performed on-site financial monitoring of any of its local agencies during the prior 18 months,
including reviewing documentation supporting reimbursements. In our Preliminary Report, we
made recommendations to improve Virginia's financial monitoring of its local agencies.

In response to the May 2010 preliminary report, both the Department and the Commonwealth of
Virginia indicated that corrective actions were in process. During our current review, we
substantiated that the Department of Energy, DHCD, and the three community action agencies
we evaluated had, in fact, either initiated or completed actions to address the issues identified by
our Preliminary Report (see Appendix 1). To its credit, Virginia had conducted financial
monitoring visits at all 22 of its local agencies.

We concluded that the Department and DHCD had made significant progress in improving
management controls over the Commonwealth's Weatherization Program. DHCD made
numerous changes that, if successfully implemented and executed, will increase the likelihood of
successfully achieving the goals of the Program. Virginia had also resolved all but $26,000 of
the $1.2 million in questioned costs that we identified during our audit work at the local
agencies. While management had taken action to address the recommendations and issues
identified, we suggest that the Department and DHCD continue efforts to evaluate performance,
particularly in the areas of billed costs, eligibility determination and monitoring to ensure that the
Weatherization Program operates effectively and efficiently.

MANAGEMENT REACTION

Both the Department and DHCD provided comments and agreed with the information in the
report. These comments are included in Appendix 4. The Department stated that it would
closely monitor Virginia's Weatherization Program to ensure that the Program is operating
effectively and efficiently. DHCD stated that the audit served as a catalyst for necessary
improvements in the administration of the Program. The three Community Action Agencies
reviewed declined to provide comments.

Attachment
cc: Deputy Secretary
      Associate Deputy Secretary
      Acting Under Secretary for Energy
      Deputy Assistant Secretary for Energy Efficiency, EE-20
      Chief of Staff
REPORT ON THE DEPARTMENT OF ENERGY'S WEATHERIZATION
ASSISTANCE PROGRAM FUNDED UNDER THE AMERICAN
RECOVERY AND REINVESTMENT ACT FOR THE COMMONWEALTH
OF VIRGINIA

TABLE OF
CONTENTS


Commonwealth of Virginia's Weatherization Assistance Program

Details of Finding ......................................................................................................................... 1

Path Forward ................................................................................................................................. 6


Appendices

1. Listing of Issues and the Actions Taken .................................................................................. 7

2. Objective, Scope and Methodology ....................................................................................... 10

3. Prior Reports ......................................................................................................................... 12

4. Management Comments ....................................................................................................... 14
The Department of Energy's Weatherization Assistance Program
Funded under the American Recovery and Reinvestment Act for
the Commonwealth of Virginia

Commonwealth of      The Commonwealth of Virginia (Virginia) and its local
Virginia's           agencies had not always ensured that weatherization activities
Weatherization       funded by the American Recovery and Reinvestment Act of
Assistance Program   2009 (Recovery Act) were performed efficiently and
                     effectively. In particular, our review of three selected local
                     agencies identified weaknesses in financial management,
                     eligibility determination and in ensuring the quality of
                     weatherization services provided during the period
                     February 2009 to March 2010.

                                         Financial Management

                     We found that Crater District Area Agency on Aging (Crater)
                     and Community Housing Partners Corporation's (CHPC)
                     requests for reimbursement were not supported by records
                     verifying that costs incurred were reasonable and allowable.
                     Specifically:

                            Crater could only support about $63,200 in labor and
                            materials for the weatherization of 83 multi-family
                            units at a multi-unit complex. However, Crater billed
                            the Department of Housing and Community
                            Development (DHCD) and was reimbursed $539,500
                            for the weatherization of these units. While the
                            executed agreement between DHCD and Crater states
                            that DHCD shall reimburse Crater on a monthly basis
                            for allowable and properly documented expenditures,
                            Crater submitted an invoice based on 83 units times the
                            $6,500 maximum allowable average cost per unit under
                            the Recovery Act rather than actual costs incurred to
                            weatherize the units;

                            Crater was unable to furnish support for about $62,300
                            of the $100,000 it received from the DHCD for ramp-
                            up and expanding the capabilities of its Weatherization
                            Assistance Program (Weatherization Program);

                            In our sample of 30 job reports from Crater, we
                            identified about $15,600 of $58,500 (27 percent) in
                            reimbursements for the weatherization of 7 single
                            family and 2 mobile homes that were not properly
                            supported. Specifically, of the $15,600, job reports
                            with total reimbursements of about $9,800 lacked



Page 1                                                          Details of Finding
                documentation for material and labor costs; and, for the
                remaining $5,800, we were unable to ascertain from the
                subcontractors' invoices that the materials used for
                weatherization were consistent with Federal
                regulations;

                CHPC could not support about $600,000 in material
                and labor costs associated with the weatherization
                services provided for 156 units in 3 multi-unit
                complexes. Neither we nor DHCD were able to
                confirm the materials used in weatherization, the costs
                of these materials and the labor costs associated with
                installing these materials; and,

                Crater had not always ensured that subcontractors paid
                employees prevailing wage rates as required by the
                Davis-Bacon Act. We noted that three of Crater's five
                subcontractors we selected for review had not paid their
                employees the mandated minimum hourly rate for
                electricians under the Davis-Bacon Act.

         Federal regulations require local agencies to maintain records
         such as costs incurred in weatherizing individual dwelling
         units, income of households receiving weatherization
         assistance and such other records necessary for an effective
         audit and performance evaluation.

         Overall, these questioned costs totaled nearly $1.2 million.
         DHCD took action to address the questioned costs after we
         brought these matters to its attention. Specifically, DHCD
         requested and obtained documentation to determine the validity
         of the questioned costs stated above at Crater and CHPC.
         While DHCD was still in the process of finalizing the amount
         of questioned costs, it has completed negotiations with the
         community action agencies to address the questioned costs.
         For example, of its approximately $600,000 in questioned
         costs, CHPC stated that $277,200 should have been originally
         charged to the Department of Health and Human Services'
         Low-Income Home Energy Assistance Program (LIHEAP).
         Also, DHCD has addressed most of the approximately
         $554,300 in questioned costs at Crater. Additionally, DHCD
         ensured that the previously discussed subcontractor employees
         were paid the prevailing wage rates as prescribed by the Davis-
         Bacon Act. The Department, however, has yet to review and
         sustain the cost allowability determinations.




Page 2                                              Details of Finding
                            Eligibility Determinations

         We found that Crater had not always ensured that
         weatherization services were provided to eligible applicants or
         units. Specifically:

                Crater should not have been reimbursed for four units
                weatherized in multi-unit buildings. Three dwelling
                units in multi-unit buildings were ineligible for
                weatherization assistance because Crater was unable to
                provide documentation that the vacant dwelling units
                were occupied by eligible households within 180 days
                of completion of weatherization. One unit that served
                as the rental office was ineligible because
                Weatherization Program funds cannot be used to
                weatherize units that are used for commercial purpose;
                and,

                In addition, at Crater, applicant household income
                exceeded allowable maximum household income for
                1 of the 30 files we tested. The Commonwealth of
                Virginia's Weatherization Assistance Program Master
                Plan, which is consistent with Federal requirements,
                defines an eligible applicant for the Weatherization
                Program as an applicant whose household income does
                not exceed 75 percent of the prevailing LIHEAP State
                Median Income limit, or 200 percent of the current
                poverty income guideline, whichever is higher.

         Crater delegated responsibility for eligibility determination to
         another local agency. The agency determining eligibility also
         owned a multi-unit complex that was being weatherized for
         Crater. Consequently, this arrangement created an apparent
         conflict of interest where the owner of the building was
         responsible for determining unit eligibility. Federal Grant
         requirements state that no employee, officer or agent of the
         grantee or sub-grantee shall participate in the selection, award
         or administration of a contract supported by Federal funds if a
         conflict of interest, real or apparent, will be involved.

         After we brought the above matter to its attention, DHCD
         revised its Weatherization Program Operations Manual to
         require approval of all phases of multi-unit projects. By
         providing for earlier DHCD involvement in projects, the above
         issues regarding eligibility and apparent conflicts of interest
         will likely be prevented and mitigated in the future. For


Page 3                                               Details of Finding
                     example, the new multi-unit weatherization policy does not
                     allow local agencies to delegate the authority to determine unit
                     eligibility.

                                Weatherization Quality Final Inspections

                     We determined that neither Crater nor CHPC had always
                     performed or documented final inspections on homes
                     reimbursed by Virginia as required. Specifically:

                            Crater did not have evidence of a post work inspection
                            or final inspection reports for 13 of the 30 units we
                            reviewed, or 43 percent, even though Crater had billed
                            Virginia for these units as completed; and,

                            CHPC did not perform final inspections of 70 percent
                            of the dwelling units in multi-family complexes. Also,
                            the final inspection reports for 9 of the 30 dwelling
                            units we sampled were missing the required signatures
                            of individuals trained to complete the inspections.

                     Under Virginia's Weatherization Assistance Program
                     Information Notice, effective February 2011, local agencies are
                     required to perform a final inspection of each dwelling unit
                     before the job can be reported to DHCD as complete and
                     eligible for reimbursement. The final inspection must be
                     signed and dated by the individual(s) trained and authorized to
                     complete these inspections to ensure that the weatherization
                     services have been provided in a quality manner, consistent
                     with Federal requirements. DHCD currently requires local
                     agencies to submit a final inspection report for each unit
                     weatherized prior to providing the agencies with
                     reimbursement payments.

Monitoring and       In large measure, these weaknesses occurred because, as
Reporting Controls   discussed in our Preliminary Report, the Commonwealth of
                     Virginia's DHCD had not implemented the financial and
                     reporting controls needed to ensure Weatherization Program
                     funds were spent effectively and efficiently, nor had they
                     assigned sufficient staffing to the Weatherization Program. In
                     particular, we noted in May 2010, that DHCD had not
                     performed on-site financial monitoring of any of its local
                     agencies during the prior 18 months, including reviewing
                     documentation supporting reimbursements. Consequently,
                     issues identified during our current review at the local agencies
                     were allowed to go undetected and uncorrected.


Page 4                                                           Details of Finding
         To its credit, we found that during our current review, DHCD
         has taken numerous actions to address the weaknesses
         identified above. Specifically, DHCD has revised their fiscal
         monitoring policies and procedures in their operations manual
         and had performed on-site monitoring at all 22 local agencies.
         Subsequent to our audit, DHCD released two Weatherization
         Assistance Program Information Notices that established
         documentation requirements needed to support invoices,
         eligibility and final inspections. Prior to reimbursement, local
         agencies are currently required to submit several documents
         with monthly invoices, including:

                Summary and detailed monthly expenditure
                information reconciled to the general ledger;

                Building weatherization reports; and,

                Final inspection reports for completed units.

         In addition, DHCD and the Department provided training to the
         local agencies on how to track and report actual costs. These
         actions, if faithfully executed, are likely to ensure that a unit
         will not be reported to the Department as a weatherized unit
         until the final inspection is completed. Further, DHCD has
         purchased and is currently implementing a new computer-
         based tracking system that should address past issues with
         timely and accurate reporting.

         DHCD also revised its invoicing policy to prohibit local
         agencies from requesting reimbursement on an average cost
         basis; rather, local agencies are currently required to bill
         Virginia on actual costs incurred. DHCD currently reviews all
         documentation submitted with local agency reimbursement
         requests. Finally, DHCD increased its staff and improved its
         automated systems, allowing increased financial monitoring
         and oversight of compliance with regulations such as the
         Davis-Bacon Act.

         Beyond the improvements DHCD has made, the Department
         has also taken action to address the weaknesses in Virginia's
         Weatherization Program. Specifically, the Department
         increased the number of its project monitors. For example, at
         the National Energy Technology Laboratory in Pittsburgh,
         Pennsylvania, the number of Department Project Officers for
         weatherization project monitoring increased from three to nine.




Page 5                                               Details of Finding
               Also, the Department has provided two on-site technical
               monitoring visits as well as one financial review since our
               Preliminary Report was issued.

               The Department and DHCD's actions to address the
               recommendations in our Preliminary Report are presented in
               detail in Appendix 1. We have also included actions taken by
               DHCD in response to the issues identified during our current
               review in Appendix 1.

Path Forward   The Department and DHCD have made significant progress in
               improving Virginia's monitoring capability and controls over
               the Weatherization Program. DHCD has been responsive to
               our previous recommendations and to our observations
               communicated during the reviews and has instituted numerous
               changes that, if successfully implemented by Virginia's
               Weatherization Program and monitored by the Department,
               will add to the success of achieving the goals of the
               Weatherization Program under the Recovery Act. Although
               management has taken action to address the recommendations
               and issues identified, continued vigilance by the Department
               and DHCD concerning billed costs, eligibility determination
               and monitoring, is necessary to allow the Weatherization
               Program to operate effectively and efficiently.

               Management's comments are included in Appendix 4.




Page 6                                                         Path Forward
Appendix 1

                                                          Listing of Issues and Actions Taken

The following presents the analysis of actions taken by the Department of Energy
(Department), the Commonwealth of Virginia's (Virginia) Department of Housing and
Community Development (DHCD), and three of its Community Action Agencies, Crater
District Area Agency on Aging (Crater), Community Housing Partners Corporation (CHPC),
and Rappahannock Area Agency on Aging (Rappahannock), in response to recommendations
made by the Office of Inspector General (OIG) and its contract auditor during reviews made
in 2010 and 2011.


                                                 Recommendation                                                       Actions Taken
                          To achieve the objectives of the Recovery Act, it is important that the      1. Virginia's DHCD hired additional personnel and
                          Department and Virginia have effective financial and reporting controls.     has conducted on-site financial monitoring for all 22
                          Virginia has the opportunity to improve the health and safety of low-        of its local agencies.
                          income citizens as well as significantly reduce their energy
                          consumption. Unless the weaknesses identified in this report are
                          addressed, the risk of failing to achieve Recovery Act goals, along with
                          the risks of fraud, waste and abuse, will increase.

                          To ensure the success of the Weatherization Assistance Program, we
                          recommend that the Department's Assistant Secretary for Energy
                          Efficiency and Renewable Energy (EERE) ensure that Virginia
                          establishes financial and reporting controls, including:
 OIG Preliminary Report




                          1. a) Conducting on-site monitoring of subgrantee financial activities as
                          required by its approved Weatherization Program State Plan;

                          1. b) Reviewing prior subgrantee billings and seeking reimbursement          2. After reviewing a sample of prior billings, DHCD
                          for any amounts erroneously charged;                                         proposed an alternative to reviewing all billings to
                                                                                                       the Department's project officer, who agreed to the
                                                                                                       procedures as described in Actions Taken # 3.

                          1. c) Periodically reconciling the amount of funds invoiced and              3. DHCD has developed new procedures that require
                          reimbursed to subgrantee actual costs;                                       local agencies to submit documents with monthly
                                                                                                       invoices. These include: 1) a detailed general
                                                                                                       ledger report; 2) a summary report showing total
                                                                                                       expenditures matching the general ledger report; 3) a
                                                                                                       building Weatherization Report; and, 4) a final
                                                                                                       inspection report for completed units.
                          1. d) Maintaining inventories of vehicles and equipment; and,                4. DHCD ensures that local agencies are maintaining
                                                                                                       inventories of vehicles and equipment as a part of its
                                                                                                       fiscal monitoring.
                          1. e) Correcting identified production reporting weaknesses.                 5. This issue is resolved as in Actions Taken #3
                                                                                                       above where units are not paid for or counted as
                                                                                                       completed until the final inspection report is
                                                                                                       received by DHCD.
                          2. Federal Project Officers responsible for monitoring grantees include      6. The Department's project officer requested that
                          financial reviews and evaluations of reporting capability in their on-site   the contracting officer perform a financial
                          monitoring visits.                                                           monitoring review of DHCD. The review took
                                                                                                       place on June 28, 2010. Further, DHCD has signed
                                                                                                       a contract with Hancock Energy Systems in an effort
                                                                                                       to improve DHCD's reporting capability.




Page 7                                                                                             Listing of Issues and Actions Taken
 Appendix 1 (continued)

                                    1.1 We recommend that DHCD ensure that Crater— Makes the necessary               7. See Actions Taken #8 below.
                                    modifications to verify the applicant's eligibility in accordance with current
                                    income guidelines.
                                    1.2 We recommend that DHCD ensure that Crater— Develops and                      8. DHCD issued a revised chapter (policy) on
                                    implements procedures to ensure that responsibility for determination of         weatherization of multi-family units. Neither
                                    applicant and dwelling unit eligibility is not performed by the subcontractor    Crater nor any other Virginia local agency can
                                    selected to perform weatherization, or the building owner or its agent.          delegate the requirement to determine eligibility.
                                    2.1 Recommend that DHCD – Requires Crater to develop and implement a             9. DHCD developed a policy applicable to all
                                    corrective action plan which addresses prior and current Weatherization          local agencies that units will not be reimbursed
                                    program deficiencies (related to lack of post-work and completion                until a signed final inspection report is provided
                                    inspections- quality of work).                                                   to DHCD.
                                    3.1 Recommend that DHCD – work with Crater to address the costs                  10. DHCD has obtained supporting
                                    questioned in this finding (unit costs - $476,281; ramp up costs $62,304;        documentation from Crater for Westover
                                    7 homes 2 trailers $15,675).                                                     Commons. DHCD found that the agency had
                                                                                                                     funds on hand, less these costs in the amount of
                                                                                                                     the advance for Westover Commons. Therefore,
                                                                                                                     DHCD no longer questions the entire $476,281.
     Lani Eko Evaluation - Crater




                                                                                                                     Further, DHCD determined that the client files
                                                                                                                     had sufficient information supporting the
                                                                                                                     questioned costs of $15,675 for ramp up costs of
                                                                                                                     $62,304. As of March 21, 2011, DHCD indicated
                                                                                                                     that they have Crater on a payment plan where
                                                                                                                     DHCD will recoup the ramp up funds.
                                    3.2 Recommend that DHCD – review both Crater's and its own procedures            11. See Actions Taken #10 above.
                                    for monitoring and approving requests for reimbursement to ensure that
                                    Crater's requests for reimbursements using Recovery Act funds are
                                    adequately supported with sufficient, competent and relevant
                                    information/documentation.
                                    3.3 Recommend that DHCD – ensure that Crater develops and implements             12. See Actions Taken #10 above. Crater tracks
                                    procedures to track labor and material costs by weatherized unit.                labor and material costs. DHCD now requires
                                                                                                                     that all local agencies provide them with the
                                                                                                                     Building Weatherization Report prior to payment
                                                                                                                     of invoice.
                                    4.1 Recommend that DHCD ensure that Crater management: reviews                   13. DHCD provided schedules demonstrating that
                                    contractors certified weekly payroll reports to ensure that subcontractor        Davis-Bacon Act wages for all 22 local agencies
                                    employees are paid at least the minimum hourly rates mandated by the             are now tracked.
                                    Davis-Bacon Act.
                                    4.2 Recommend that the subcontractors pay their employees amounts owed           14. Crater provided documents to show that
                                    under the Davis-Bacon Act and the terms and conditions of the subcontracts       subcontractor employees' were paid the additional
                                    with Crater.                                                                     amounts owed to them.
                                    4.3 Recommend that DHCD ensure that adequate staff be assigned to                15. See Actions Taken #1 above. DHCD hired
                                    perform monitoring of Recovery Act funds.                                        additional staff.

                                    5.1 Recommend that DHCD review its procedures for recommending                   16. DHCD revised the Multi-Unit Weatherization
                                    and/or approving subcontractors for weatherization projects to prevent           Operations Manual (Chapter 8) as well as other
                                    conflicts of interest, and restricts subcontractors from incompatible            sections of the manual to address conflicts of
                                    functions of performing weatherization work and determining eligibility of       interest – real or perceived. Local agencies
                                    applicants and dwelling units for weatherization program grants.                 cannot delegate the authority to determine
                                                                                                                     eligibility.
                                    5.2 Recommend that DHCD evaluate all aspects of the weatherization of the        17. See Actions Taken #16 above.
                                    multi-unit complex to ensure that the weatherization efforts were conducted
                                    without any perceived or actual conflicts of interest.
Lani Eko Evaluation




                                    1.1 Recommend that DHCD ensure that Rappahannock complies with                   18. DHCD has resolved income eligibility issues.
                                    Virginia's Weatherization Assistance Master Plan and Federal requirements
 - Rappahannock




                                    for the verification and determination of applicants' income eligibility for
                                    weatherization assistance.




 Page 8                                                                                                         Listing of Issues and Actions Taken
Appendix 1 (continued)

                              1.2 Recommend that DHCD work with Rappahannock to resolve the costs             19. See Actions Taken #18 above.
                              questioned in this finding ($39,230 for 4 units where applicants' incomes
                              were not properly documented).




                              1.3 Recommend that DHCD review both Rappahannock's and its own                  20. DHCD has reviewed and developed new
                              procedures for monitoring and approving requests for reimbursement to           procedures for approving reimbursement. See
                              ensure that Rappahannock's requests for reimbursement using Recovery Act        Actions Taken #3 above.
                              funds are adequately supported with sufficient, competent and relevant
                              information/documentation.




                              1.1 Recommend that DHCD ensure that CHPC follow the requirement for             21. DHCD now requires the Final Inspection
                              final inspection of all weatherized multi-family units.                         report prior to providing payment to local
                                                                                                              agencies. See Actions Taken #3 above.
                              1.2 Recommend that DHCD develop and implement procedures to ensure              22. See Actions Taken #21 above.
                              that reimbursements to CHPC are supported by signed final inspection
                              reports for all weatherized dwelling units.
 Lani Eko Evaluation - CHPC




                              1.3 Recommend that DHCD require CHPC to develop and implement a                 23. DHCD developed a corrective action plan that
                              corrective action plan which addresses current Weatherization program           requires a final inspection report to be provided to
                              deficiencies (need to have units inspected before reimbursement of costs).      them prior to payment.
                              2.1 Recommend that DHCD work with CHPC to resolve the costs                     24. DHCD is working with CHPC and the
                              questioned ($599,662).                                                          Department to resolve these costs.

                                                                                                              As of March 21, 2011, DHCD intends to permit
                                                                                                              $277,000 of Recovery Act weatherization costs
                                                                                                              for Pulaski Village to be paid from LIHEAP
                                                                                                              funds. The DHCD plans to provide the OIG with
                                                                                                              documentation to support the remainder of these
                                                                                                              costs as valid Recovery Act weatherization costs
                                                                                                              that will exceed the amount charged by CHPC.

                              2.2 Recommend that DHCD review both CHPC and its own procedures for             25. DHCD has reviewed and developed new
                              approving requests for reimbursement to ensure that CHPC requests for           procedures for approving reimbursement. See
                              reimbursements using Recovery Act funds are adequately supported with           Actions Taken #3 above.
                              sufficient, competent, and relevant information/documentation.
                              2.3 Recommend that DHCD ensure that CHPC develops and implements                26. DHCD has reviewed and developed new
                              procedures to track labor and material costs by weatherized dwelling unit, to   procedures and a new system to track labor costs.
                              include sufficient information on the amounts and types of materials            See Actions Taken #6 above.
                              installed in each unit.




Page 9                                                                                                Listing of Issues and Actions Taken
Appendix 2

OBJECTIVE     The objective of this audit was to determine the effectiveness
              of selected community action agencies (local agencies) in
              carrying out the Department of Energy's (Department)
              American Recovery and Reinvestment Act of 2009 (Recovery
              Act) funded Weatherization Assistance Program
              (Weatherization Program) for the Commonwealth of Virginia's
              Department of Housing and Community Development
              (DHCD).

SCOPE         This report contains the results of an audit performed between
              October 2010 and July 2011, at the National Energy
              Technology Laboratory (NETL) in Pittsburgh, Pennsylvania,
              and DHCD in Richmond, Virginia. We performed reviews at
              Crater District Area Agency on Aging, Community Housing
              Partners Corporation, and Rappahannock Area Agency on
              Aging. We concentrated our efforts on DHCD's
              Weatherization Program as funded by the Recovery Act.

METHODOLOGY   To accomplish the audit objective, we:

                     Reviewed the Preliminary Audit Report prepared by the
                     Office of Inspector General (OIG) and the three
                     Agreed-Upon Procedure engagements conducted by
                     Lani Eko & Company, an independent accounting firm
                     under contract with the OIG, respectively, pertaining to
                     DHCD's Weatherization Assistance Program as funded
                     by the Recovery Act. The Agreed-Upon Procedure
                     reviews were performed in accordance with attestation
                     standards established by the American Institute of
                     Certified Public Accountants as well as those additional
                     standards contained in the Government Auditing
                     Standards, issued by the Comptroller General of the
                     United States. The OIG monitored the progress of the
                     Agreed-Upon Procedures performed and reviewed the
                     report and related documentation. Our review disclosed
                     no instances where Lani Eko & Company, in all
                     material aspects, did not comply with the attestation
                     requirements;

                     Held discussions with Energy Efficiency and
                     Renewable Energy officials to discuss current and
                     ongoing efforts to implement the recommendations we
                     made; and,

                     Collected information to verify that the Department and
                     DHCD were addressing all of the recommendations
                     made in our Preliminary Report and the issues
                     identified in local agency evaluations.

Page 10                              Objective, Scope and Methodology
Appendix 2 (continued)

                    We conducted this performance audit in accordance with
                    generally accepted Government auditing standards. Those
                    standards require that we plan and perform the audit to obtain
                    sufficient, appropriate evidence to provide a reasonable basis
                    for our findings and conclusions based on our audit objective.
                    We believe that the evidence obtained provides a reasonable
                    basis for our findings and conclusions based on our audit
                    objective. Because our review was limited, it would not
                    necessarily have disclosed all internal control deficiencies that
                    may have existed at the time of our audit. We considered the
                    establishment of Recovery Act performance measures, which
                    included certain aspects of compliance with the Government
                    Performance and Results Act of 1993, as necessary to
                    accomplish the objective. We did not rely on computer
                    processed data to accomplish our audit objective; accordingly,
                    we did not conduct tests of automated computer systems for
                    DHCD or the local agencies.

                    Management waived a formal exit conference.




Page 11                                     Objective, Scope and Methodology
Appendix 3

                                     PRIOR REPORTS

OFFICE OF INSPECTOR GENERAL REPORTS

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), the Office of
Inspector General has initiated a series of audits designed to evaluate the Department of
Energy's Weatherization Assistance Program's internal control structures at the Federal, state,
and local levels. Although not found in every state, these audits have identified issues in
areas such as poor quality of weatherization services, inspections and re-inspections,
inadequate inventory controls, and questioned costs resulting from the ineffective
administration of the weatherization grants. Our series of audit reports include the following:

       Audit Report "The Department of Energy's Weatherization Assistance Program under
       the American Recovery and Reinvestment Act in the State of West Virginia" (OAS-
       RA-11-09, June 13, 2011);

       Audit Report "The Department of Energy's Weatherization Assistance Program
       Funded under the American Recovery and Reinvestment Act for the State of
       Wisconsin" (OAS-RA-11-07, June 6, 2011);

       Audit Report "The Department of Energy's Weatherization Assistance Program under
       the American Recovery and Reinvestment Act for the Capital Area Community
       Action Agency – Agreed-Upon Procedures" (OAS-RA-11-04, February 1, 2011);

       Audit Report "The Department of Energy's Weatherization Assistance Program under
       the American Recovery and Reinvestment Act for the City of Phoenix – Agreed-
       Upon Procedures" (OAS-RA-11-03, November 30, 2010);

       Audit Report "Selected Aspects of the Commonwealth of Pennsylvania's Efforts to
       Implement the American Recovery and Reinvestment Act Weatherization Assistance
       Program" (OAS-RA-11-02, November 1, 2010);

       Audit Report "The State of Illinois Weatherization Assistance Program" (OAS-RA-
       11-01, October 14, 2010);

       Audit Report "The Department of Energy's Use of the Weatherization Assistance
       Program Formula for Allocating Funds Under the American Recovery and
       Reinvestment Act" (OAS-RA-10-13, June 11, 2010);

       Preliminary Audit Report "Management Controls over the Commonwealth of
       Virginia's Efforts to Implement the American Recovery and Reinvestment Act
       Weatherization Assistance Program" (OAS-RA-10-11, May 26, 2010);

       Special Report "Progress in Implementing the Department of Energy's Weatherization
       Assistance Program Under the American Recovery and Reinvestment Act" (OAS-
       RA-10-04, February 19, 2010); and,


Page 12                                                                        Prior Reports
Appendix 3 (continued)

     Audit Report "Management Alert on the Department's Monitoring of the
     Weatherization Assistance Program in the State of Illinois" (OAS-RA-10-02,
     December 3, 2009).




Page 13                                                                  Prior Reports
Appendix 4




Page 14      Management Comments
Appendix 4 (continued)




Page 15                  Management Comments
Appendix 4 (continued)




Page 16                  Management Comments
                                                              IG Report No. OAS-RA-11-14

                         CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we
   have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                             Office of Inspector General (IG-1)
                                   Department of Energy
                                  Washington, DC 20585

                                 ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
